No. 21-109

 

In THE

Supreme Court of the United States

CALIFORNIA STATE LANDS COMMISSION,
Petitioner,
Vv.

EUGENE DAVIS, IN HIS CAPACITY AS LIQUIDATING
TRUSTEE OF THE VENOCO LIQUIDATING TRUST,
AND STATE OF CALIFORNIA

Respondenis.

On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit

BRIEF FOR RESPONDENT
IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that Respondent Eugene Davis,
Trustee’s Brief in Opposition contains 8,198 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 18, 2021.

 

Wilson-Epes Printing Co., Inc.
